Report No. D-2008-084         April 25, 2008




       Journal Vouchers Processed by the
        Defense Finance and Accounting
          Service for the Navy Working
                   Capital Fund
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
CDB                   Central Database
CGSM                  Cost of Goods Sold Model
DDRS-AFS              Defense Departmental Reporting System - Audited Financial
                         Statements
DDRS-B                Defense Departmental Reporting System - Budgetary
DFAS                  Defense Finance and Accounting Service
DFAS CL               Defense Finance and Accounting Service Cleveland
DFAS KC               Defense Finance and Accounting Service Kansas City
DON                   Department of the Navy
FMR                   Financial Management Regulation
GAO                   Government Accountability Office
NWCF                  Navy Working Capital Fund
OUSD(C)/CFO           Office of the Under Secretary of Defense (Comptroller)/Chief
                         Financial Officer
SOP                   Standard Operating Procedures
USSGL                 U.S. Standard General Ledger
                              INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704




                                                                          April 25, 2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                 CHIEF FINANCIAL OFFICER
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               NAVAL INSPECTOR GENERAL

SUBJECT: Report on Journal Vouchers Processed by the Defense Finance and
         Accounting Service for the Navy Working Capital Fund (Report
         No. D-2008-084)


      We are providing this repmi for information and use. We considered
management comments on a draft of this report in preparing the final report.

        Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.

       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Edward A. Blair at (216) 706-0074, extension 226 or Ms. Laura J.S. Croniger at
(216) 706-0074, extension 227. The team members are listed inside the back cover.



                                       f~a./!J~
                                       Patricia A. Marsh, CPA
                                     Assistant Inspector General
                                  Defense Financial Auditing Service
                Department of Defense Office of Inspector General
Report No. D-2008-084                                                         April 25, 2008
   (Project No. D2006-D000FC-0185.000)




          Journal Vouchers Processed by the Defense Finance and
          Accounting Service for the Navy Working Capital Fund

                                  Executive Summary

Who Should Read This Report and Why? Department of the Navy personnel
responsible for financial management, and Defense Finance and Accounting Service
(DFAS) personnel responsible for processing journal voucher adjustments for the
Department of the Navy Working Capital Fund should read this report. This report
discusses the reliability and auditability of the journal voucher adjustments processed by
DFAS Cleveland for the Department of the Navy Working Capital Fund.

Background. DFAS provides finance and accounting services for the Department of the
Navy. DFAS Cleveland and DFAS Kansas City are jointly responsible for the finance
and accounting operations of the Navy and the U.S. Marine Corps, collectively referred
to as the Department of the Navy. DFAS Cleveland is responsible for all of the financial
reporting for the Department of the Navy. DFAS Kansas City is responsible for the U.S.
Marine Corps financial information consolidated into the Navy financial information at
DFAS Cleveland. The Department of the Navy Working Capital Fund reported total
assets of $19 billion and total liabilities of $6.9 billion for the second quarter of FY 2006.
Journal voucher adjustments are an important step in the financial reporting process.
Journal voucher adjustments should be processed in accordance with applicable
regulations, which require adequate supporting documentation for each transaction.

Results. We audited a sample of 160 journal vouchers processed by DFAS. We
identified 37 journal vouchers with a net value of $4.1 billion as unsupported. We also
identified 110 of these journal vouchers with operational control deficiencies. As a
result, we estimate that DFAS processed 220 unsupported journal vouchers and 682
journal vouchers with operational control deficiencies. The Director of Defense Finance
and Accounting Service Cleveland should enforce the existing policy requiring supported
journal voucher adjustments. Further, the Director of Defense Finance and Accounting
Service Cleveland should develop or improve standard operating procedures to ensure
compliance with Office of the Under Secretary of Defense (Comptroller)/Chief Financial
Officer journal voucher guidance. (See the Finding section of the report for detailed
recommendations.)

DFAS Cleveland’s internal controls were not adequate. We detected weaknesses in the
Managers’ Internal Control Program: DFAS Cleveland did not identify any issues
regarding the review of the standard operating procedures to ensure compliance with
current published guidance. DFAS managers perform quarterly reviews of their system
of internal accounting controls to comply with management control program
requirements; however, management did not identify the determination of whether a
journal voucher was “supported” or “unsupported” as a specific control.

Management Comments and Audit Response. The Director, Defense Finance and
Accounting Service Cleveland concurred with all recommendations. The Director listed
the following corrective actions taken.

   •   DFAS and the Office of the Secretary of Defense added the metric regarding
       unsupported journal adjustments starting in FY 2007.

   •   The Working Capital Fund branch added two process control points to improve
       operational control procedures.

   •   Both Departmental Reporting System-Audited Financial Statements, and Defense
       Departmental Reporting System-Budgetary, now include the supported or
       unsupported in the journal voucher explanation. The Central Data Base identifies
       the journal voucher as supported or unsupported on the cover sheet.

We reviewed the above information and confirmed appropriate guidance was developed
and journal voucher adjustments are identified as supported or unsupported.
Management comments were responsive and corrective actions taken meet the intent of
the recommendations. (See the Finding sections for discussion of management
comments and the Management Comments section for the complete text of the
comments.)




                                          ii
Table of Contents

Executive Summary                                        i

Background                                              1

Objectives                                              2

Review of Internal Controls                             3

Finding
     Journal Voucher Adjustments                         5

Appendixes
     A. Scope and Methodology                           10
     B. Statistical Sampling Methodology                12
     C. Report Distribution                             13

Management Comments
     Defense Finance and Accounting Service Cleveland   15
Background
           This audit focused on the Department of Navy Working Capital Fund (NWCF)
           journal vouchers processed in the Central Data Base (CDB), Defense
           Departmental Reporting System-Budgetary (DDRS-B), and Defense
           Departmental Reporting System-Audited Financial Statements (DDRS-AFS) by
           Defense Finance and Accounting Service (DFAS). DFAS provides finance and
           accounting services for the Department of the Navy (DON). DFAS Cleveland
           (DFAS CL) and DFAS Kansas City (DFAS KC) are jointly responsible for the
           finance and accounting operations of the Navy and the U.S. Marine Corps,
           collectively referred to as the DON. DFAS CL is responsible for all of the
           financial reporting for the DON. DFAS KC is responsible for the U.S. Marine
           Corps financial data that consolidates into DON financial data at DFAS CL. For
           FY 2006, second quarter, the NWCF reported total assets of $19 billion and total
           liabilities of $6.9 billion.

           DDRS-AFS standardizes the DoD departmental reporting processes and produces
           annual and quarterly departmental reports based on the U.S. Standard General
           Ledger (USSGL) using standard attributes. It is a Web-based system that
           replaced the client-based systems. DDRS-AFS is revised periodically to
           incorporate updated Office of the Under Secretary of Defense
           (Comptroller)/Chief Financial Officer (OUSD[C]/CFO) financial reporting
           requirements. DDRS-AFS includes the reconciliations OUSD(C)/CFO requires
           within and between reports.

           DDRS-B standardizes DoD departmental reporting processes and produces
           monthly departmental reports based on the USSGL and other standard attributes.
           It is a Web-based application that replaced many of the legacy1 departmental
           budgetary reporting systems. DDRS-B incorporates reporting requirements from
           the Office of Management and Budget, the Department of the Treasury, and the
           OUSD(C)/CFO. DDRS-B includes required reconciliations within and between
           various reports. However, DDRS-B is strictly a reporting system and not an
           accounting system. It produces budgetary reports but does not determine whether
           the correct accounting rules and principles were used when recording transactions
           and producing reports.

           The CDB is a legacy departmental budgetary system employed by Navy Supply
           Management. The CDB posts data streams and journal vouchers from Navy
           Supply Management in Mechanicsburg, Pennsylvania. The data are uploaded to
           the Cost of Goods Sold Model (CGSM) and processed, and then the CDB creates
           a trial balance to upload to DDRS-B.

           Public Law Requirements. Public Law 104-208, “Federal Financial
           Management Improvement Act of 1996,” September 30, 1996, requires that
           agencies use the USSGL to accumulate and report standard financial data. The
           USSGL contains two sets of general ledger accounts: budgetary and proprietary.

1
    DoD Directive 8190.1, “DoD Logistics Use of Electronic Data Interchange (EDI) Standards,
    Enclosure 1,” issued May 5, 2000, defines legacy systems as “Information systems currently performing
    a logistics function. These systems may be candidates for phase-out, upgrade, or replacement.”



                                                     1
    The USSGL account structure provides a self-balancing set of budgetary accounts
    to record the transactions for the Navy budget, the appropriation, appointment,
    allocation, commitment, obligation, and expenditure process. Proprietary asset
    and liability accounts record transactions for Navy assets and liabilities, including
    the receipt of funds in the U.S. Treasury, the proper classification of the assets,
    and the recognition and proper classification of liabilities.

    Transactions may require entries to both budgetary and proprietary general ledger
    accounts. However, both the budgetary and proprietary accounts must stand
    alone. For example, a debit to a budgetary account will have a corresponding
    credit to a budgetary account. Entries that mix budgetary and proprietary general
    ledger accounts are improper and cause an imbalance in the general ledger.

    DoD Financial Management Regulation. Journal voucher adjustments are an
    important step in the financial reporting process. Journal voucher adjustments
    should comply with applicable regulations, which require adequate supporting
    documentation for each transaction. DoD Regulation 7000.14-R, DoD Financial
    Management Regulation (FMR), volume 6A, chapter 2, “Financial Reports Roles
    and Responsibilities,” March 2002, provides guidance on the primary uses and
    proper preparation of journal vouchers. It also establishes operational controls to
    ensure journal vouchers are processed timely and accurately with proper approval
    and review processes. Interim guidance is also provided by the Office of the
    Under Secretary of Defense (Comptroller)/Chief Financial Officer: FY 2006
    1st Quarter Guidance (hereafter referred to as 1st Quarter Guidance),
    “Attachment 6C: Journal Voucher Category Identification Codes and Metric
    Reporting.” This guidance establishes the 10 journal voucher category
    identification codes used in the journal voucher process. In addition, all
    accounting centers are required to report all journal vouchers in any reporting
    system (or processed through offline manual processes) as either supported or
    unsupported. The guidance defines a supported journal voucher as an entry that
    has detailed transaction-level documentation in support of the journal voucher
    amount. When it is not practical to attach supporting documentation to a journal
    voucher, sufficient information should be included so that it can be easily and
    quickly located.

    DFAS CL Standard Operating Procedures. DFAS CL Standard Operating
    Procedures (SOP) 7310.21, “Journal Voucher Guidance,” February 8, 2002,
    provides guidance on the use, preparation, and internal controls necessary to
    ensure proper recording of source-entry journal vouchers and correcting-entry
    journal vouchers for DFAS CL. In addition, DFAS CL Standard Operating
    Procedures, “AFS–WCF Operating Manual,” November 2005, provides guidance
    on the adequacy of supporting documentation to support the validity and amount
    of journal vouchers.


Objectives
    Our overall audit objective was to determine journal vouchers’ reliability, effect
    on financial reporting, and the overall management by DFAS. Specifically, we
    reviewed whether the procedures for recording journal vouchers to adjust the


                                          2
           Navy Working Capital Fund financial records are in accordance with established
           laws, regulations, and guidance. We also reviewed the management control
           program as it related to the overall objective. See Appendix A for a discussion of
           the scope and methodology related to the objectives.


Review of Internal Controls
           DoD Directive 5010.38, “Management Control Program,” and DoD
           Instruction 5010.40, “Management Control Program Procedures,” require DoD
           organizations to implement a comprehensive system of management controls that
           provides reasonable assurance that programs are operating as intended and to
           evaluate the adequacy of the controls.”2

           Scope of the Review of the Managers’ Internal Control Program. We
           assessed the adequacy of DFAS management controls over the processing and
           recording of adjusting journal vouchers within the CDB, DDRS-B, and
           DDRS-AFS. Specifically, we analyzed DFAS management controls established
           for both correcting-entry and source-entry journal vouchers and the supporting
           documentation. Additionally, we assessed management’s self-evaluation
           applicable to those controls.

           Adequacy of Managers’ Internal Controls. We detected weaknesses in the
           DFAS control program as defined by DoD Instruction 5010.40. DFAS CL did
           not identify any issues regarding the review of SOP 7310.21 to ensure compliance
           with current published guidance. For example, DFAS CL SOP 7310.21 provides
           examples of sufficient supporting documentation for each type of journal voucher.
           However, management did not implement these procedures. Recommendation 1.,
           if implemented, will correct this weakness.

           Adequacy of Managers’ Self-Evaluation. DFAS managers perform quarterly
           reviews of their system of internal administrative and accounting controls to
           comply with the management control requirements. They use a quarterly matrix
           “Management Control Program, Assessable Unit Summary” report to evaluate
           journal vouchers in each of the following assessable units: Working Capital Fund
           Audited Financial Statements, Navy Supply Management, Navy Industrial Fund,
           and Defense Information Systems Agency-Monthly Budget Execution Reports.
           Quarterly certification statements reflect the results noted during the reviews of
           the respective assessable unit. In the self-evaluations, management did not
           identify the determination of whether a journal voucher was supported or
           unsupported as a specific control. Therefore, managers did not identify or report
           journal voucher processing as a weakness during the self-evaluation processes.



2
    Our review of internal controls was done under the auspices of DoD Directive 5010.38, “Management
    Control (MC) Program,” August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996, because we reviewed journal vouchers processed before DoD
    Directive 5010.38 was canceled on April 3, 2006. DoD Instruction 5010.40, “Managers’ Internal Control
    (MIC) Program Procedures,” was reissued on January 4, 2006.



                                                     3
Material weaknesses still exist with DFAS processing of journal vouchers.
Therefore, DFAS is required to report journal vouchers as a weakness in the
Annual State of Assurance. Recommendation 2.b., if implemented, will correct
this weakness.

The DFAS internal control program is extensive, but not complete. DFAS did not
consider controls addressing risk areas related to unsupported journal vouchers
reported as supported. Specifically, management did not adequately establish the
necessary corrective actions needed to resolve this weakness. Implementing our
recommendations will improve the reliability of the journal vouchers to support
financial statements. A copy of this report was provided to the senior official in
charge of internal controls at DFAS Cleveland.




                                    4
                Single Journal Voucher Adjustments
                DFAS processed 37 unsupported journal vouchers in our sample with a
                net value of $4.1 billion. DFAS also did not use adequate operational
                controls over the processing of 110 journal vouchers in our sample.
                Journal vouchers compensate for financial system deficiencies that
                continue to exist. The 37 journal vouchers were unsupported because
                DFAS did not ensure sufficient documentation existed, and operational
                controls were not adequate because DFAS did not follow the DoD FMR
                requirements. As a result, we estimate DFAS processed 220 unsupported
                journal vouchers and 682 journal vouchers with an operational control
                deficiency, negatively affecting the reliability of financial data supporting
                financial statements.


Ability To Support Journal Voucher Adjustments
      We reviewed 160 journal vouchers with a net value of $6.2 billion recorded in
      DDRS-AFS, DDRS-B, and the CDB during the second quarter FY 2006. We
      determined that DFAS had processed 37 unsupported journal vouchers with a net
      value of $4.1 billion to balance the Department of the Navy Working Capital
      Fund budgetary and proprietary general ledgers. DFAS identified 20 journal
      vouchers entered in DDRS-AFS as unsupported. The remaining 17 journal
      vouchers were reported as supported by DFAS CL and DFAS KC, but we
      identified them as unsupported.

      We identified the 17 journal vouchers as unsupported because DFAS did not
      comply with DoD FMR and 1st Quarter Guidance requirements for determining
      supported journal voucher amounts. Guidance requires that all journal vouchers
      include supporting documentation or indicate where the supporting data are
      located. We identified unsupported journal vouchers in each of the three
      reporting systems audited. The table below shows each system and the number of
      sample items tested, with the dollar value. It also shows the number of
      unsupported journal vouchers identified in each system and the corresponding
      dollar value.

                  Value of Sample and Value of Unsupported Journal Vouchers
                                            (in billions)
    System         Number of     Net Value of        Net Value of  Number of     Number of
                     Sample         Journal          Unsupported  Unsupported   Unsupported
                      Items        Vouchers             Journal     Journal        Journal
                                   Sampled             Vouchers    Vouchers       Vouchers
                                                                                Identified by
                                                                                   DFAS
DDRS-AFS                50           $2.8            $1.5             20            20
DDRS-B                  50           $5.8            $5.7             10             0
CDB                     60          $(2.4)          $(3.1)             7             0
 Consolidated          160           $6.2            $4.1             37            20




                                               5
          DDRS-AFS Journal Vouchers. Our DDRS-AFS sample of 50 included 32
          journal vouchers processed by DFAS CL and 18 journal vouchers processed by
          DFAS KC. DFAS CL and DFAS KC appropriately identified 20 of these journal
          vouchers as unsupported as required by 1st Quarter Guidance. We did not
          identify any additional unsupported journal vouchers during our audit.

          DDRS-B Journal Vouchers. Our audit sample consisted of 50 journal vouchers
          processed within the DDRS-B system. We identified 10 unsupported journal
          vouchers processed in DDRS-B. Nine of these journal vouchers were to adjust
          accounts at the activity level to reflect the spending authority at the business area.
          These adjustments are necessary because of system limitations secondary to the
          Navy Industrial Fund Special Process in DDRS-B. There is no supporting detail-
          level information for these journal vouchers. At the time of our audit, DFAS CL
          identified these journal vouchers as supported. DFAS CL is currently identifying
          these types of journal vouchers as unsupported. The remaining one unsupported
          journal voucher was to correct a prior year error, and it was not material.

          When we began our audit, DFAS was not identifying journal vouchers as
          supported or unsupported in the DDRS-B system. In fact, the DDRS-B system
          did not provide a data field in which the preparer could identify the journal
          voucher as supported or unsupported. However, after our audit, DFAS began to
          identify unsupported journal vouchers by making a notation in the “Reason”
          section of the DDRS-B journal voucher form.

          CDB Journal Vouchers. We identified seven unsupported journal vouchers
          processed in the CDB system. The system generated and posted six unsupported
          journal vouchers related to inventory accounts. Although we did not review
          adjustments calculated by the Cost of Goods Sold Model (CGSM) used by DFAS
          to value inventory, the population of CDB journal vouchers included journal
          vouchers posted by the CDB that used CGSM calculations and were, therefore,
          part of our sample. The only documentation DFAS could provide for these six
          journal vouchers was the result of calculations made in CGSM. Because other
          DoD-wide audit efforts3 are currently addressing the use of CGSM in determining
          inventory valuation, we did not review this area. Although DFAS supports the
          adjustments with data from CGSM, we consider these six journal vouchers
          unsupported because current DFAS procedures do not value inventory at
          historical cost as required by generally accepted accounting principles.

          DFAS CL identified the remaining unsupported CDB journal voucher with a net
          value of negative $8.5 million as having originated with Navy personnel. The
          journal voucher was posted to account numbers 4221.1 “Unfilled Orders-Without
          Advance-Federal” and 4201.1 “Total Actual Resources-Collected-Automatic-
          Appropriation.” DFAS did not obtain or provide supporting documentation for
          this journal voucher.

          Consolidated Journal Vouchers Projections. Our audit results indicate 37
          unsupported journal vouchers were identified with a net value of $4.1 billion.
          Based on these sample results of overall testing, we project 220 unsupported

3
    DoD OIG Audit Report No. D-2003-039, “Naval Supply Systems Command Revaluation of Inventory to
    Latest Acquisition Cost,” December 31, 2002.



                                                  6
           journal vouchers out of 1,023 journal vouchers processed by DFAS. For
           additional information regarding our projections, see Appendix B.


Operational Controls
           We tested other operational (internal) controls over the journal voucher process as
           established in DoD FMR, volume 6A, chapter 2, “Financial Reports Roles and
           Responsibilities,” March 2002. These tests included reviewing approvals and
           peer review, verifying calculations, testing adequacy of criteria to support the
           journal voucher adjustment, and checking the journal voucher category. Our
           sample results indicate that 110 journal vouchers had a deficiency in one or more
           of the operational controls identified in DoD FMR, volume 6A. In some cases,
           the preparer or reviewer did not properly complete the “journal voucher signature
           form” by including name, title, and office symbol. In addition, we could not
           determine whether journal vouchers processed in DDRS-AFS and DDRS-B were
           reviewed or by whom. Further, several DDRS-AFS journal vouchers processed
           by DFAS KC did not provide sufficient documentation to show that the approver
           had authorization to sign as the acting Branch Chief. Based on our sample
           projections, we estimate 682 journal vouchers have some kind of operational
           control deficiency. For additional information regarding our projections, see
           Appendix B.


Impact on Financial Statements
           If unsupported amounts are material, they will impede verification of key
           financial statement assertions. Further, if systems do not accurately reconcile
           budgetary and proprietary general ledgers, imbalances will continue to exist that
           require adjustments to align both general ledgers. These factors increase the risk
           that errors can occur when preparing financial statements and, therefore, lessen
           the auditability of those financial statements.

           Generally accepted government auditing standards require the auditor to consider
           audit risk and materiality in planning an audit, designing audit procedures, and
           evaluating whether the financial statements taken as a whole are presented fairly.
           The Government Accountability Office (GAO) Financial Audit Manual
           establishes a 3-percent planning materiality4 with a design materiality5 and test
           materiality6 of one-third (1 percent) of the planning materiality. We calculated a
4
    Planning materiality is a preliminary estimate of materiality, in relation to the financial statements taken
    as a whole, used to determine the nature, timing, and extent of substantive audit procedures and to
    identify significant laws and regulations for compliance testing. See GAO Financial Audit Manual,
    pages 230-232.
5
    Design materiality is the portion of planning materiality that has been allocated to items or accounts. This
    amount is the same for all line items or accounts (except for certain offsetting balances as discussed in
    paragraph 230.10). See GAO Financial Audit Manual, pages 230-232.
6
    Test materiality is the materiality used by the auditor in testing a specific line item or account. Based on
    the auditor’s judgment, test materiality can be equal to or less than design materiality, as discussed in
    paragraph 230.13. See GAO Financial Audit Manual, pages 230-232.


                                                         7
    planning materiality of $.05 billion. We audited 160 journal vouchers with a net
    value of $6.2 billion and identified 37 journal vouchers totaling approximately
    $4.1 billion as unsupported. Because the value of the unsupported journal
    vouchers exceeds the planning materiality of $0.5 billion, these journal vouchers
    have a material effect on the NWCF financial statements. When journal vouchers
    are unsupported, the key management assertion of existence, completeness, and
    valuation cannot be verified. Although NWCF financial statements are not ready
    for audit, unsupported journal vouchers must be reduced to a level that does not
    materially affect the financial statements. In addition, strengthening the
    operational controls over journal vouchers will improve the internal control
    environment.


Recommendations, Management Comments, and Audit
  Response
       1. We recommend that the Director, Defense Finance and Accounting
          Service Cleveland enforce the applicable guidance periodically issued
          by the Office of the Under Secretary of Defense (Comptroller)/Chief
          Financial Officer regarding journal voucher category identification
          codes and metric reporting. Specifically, Defense Finance and
          Accounting Service should ensure that journal vouchers have
          supporting documentation attached or include sufficient information
          so it can be easily and quickly located. DFAS CL should coordinate
          with the Navy to support all adjustments, regardless of the
          organization that enters the journal voucher.

           Management Comments. The Defense Finance and Accounting Service
           Cleveland, Director concurred in principle and stated that this policy is
           being enforced, in that the Defense Finance and Accounting Service and
           the Office of the Secretary of Defense have added a metric regarding
           unsupported adjustments starting with the FY 2007 reporting period.

           Audit Response. The comments provided by the Director, DFAS
           Cleveland are responsive, and no further comments are required. We
           reviewed the metric and the journal vouchers processed in DDRS-AFS,
           DDRS-B, and CDB to confirm that the journal vouchers are being
           identified and reported as supported or unsupported.

       2. We recommend that the Director, Defense Finance and Accounting
          Service Cleveland:

           a. Develop or improve procedures to ensure that the operational
              controls established in DoD FMR volume 6A, chapter 2 are
              followed by accounting personnel posting journal vouchers into
              various systems.

           Management Comments. The Director, Defense Finance and
           Accounting Service Cleveland concurred in principle and stated that
           procedures were developed to resolve this issue. The Working Capital


                                        8
Fund branch had six journal voucher-related process control points in the
second quarter FY 2006. Since then, DFAS has added two process control
points related to the journal voucher adjustments. The two additional
control points have improved the operational control procedures.

Audit Response. The comments provided by the Director, DFAS
Cleveland are responsive, and no further comments are required. We
reviewed the self-assessment report for the fourth quarter of FY 2007 and
the first quarter of FY 2008. The Working Capital Fund branch added two
additional control points.

b. Include the journal voucher status of “Unsupported” or
   “Supported” as a specific control in the self-assessment processes.

Management Comments. The Director, Defense Finance and
Accounting Service Cleveland concurred in principle and stated that both
DDRS-AFS and DDRS-B now include the supported or unsupported
statement in the journal voucher explanation. The CDB journal voucher
coversheet identifies the journal voucher as supported or unsupported.

Audit Response. The comments provided by the Director, DFAS
Cleveland are responsive, and no further comments are required. We
reviewed journal vouchers processed in DDRS-AFS, DDRS-B, and CDB
to confirm that the journal vouchers are being identified and reported as
supported or unsupported.




                             9
Appendix A. Scope and Methodology
   We conducted this performance audit from May 2006 through January 2007 in
   accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives.

   We performed this audit to establish whether DFAS properly supported NWCF
   vouchers used to make adjustments. We focused the audit on journal vouchers
   used to adjust accounts to balance them and on the regularity with which DFAS
   properly identified these journal vouchers as supported or unsupported.
   Additionally, we evaluated the propriety of approvals, appropriate supporting
   documentation, and reasons for entering the journal voucher.

   In order to accomplish the audit objectives, we obtained the journal voucher logs
   containing 275 DDRS-AFS journal vouchers, 276 DDRS-B journal vouchers, and
   472 CDB journal vouchers processed in the first and second quarters of FY 2006.
   These journal voucher logs represented 1,023 journal vouchers processed by
   DFAS-CL in the first half of FY 2006. However, the DDRS-AFS journal voucher
   log included 70 journal vouchers processed by DFAS KC for the U.S. Marine
   Corps. These journal vouchers consolidate into the DON financial data. We
   coordinated with the Quantitative Methods Directorate (QMD), DoD Office of the
   Inspector General in developing a statistical sample design. QMD selected a
   sample of 160 journal vouchers: 50 from DDRS-AFS, 50 from DDRS-B, and 60
   from CDB. We tested the sample transactions against established audit criteria.
   See Appendix B for a discussion of the statistical sampling methodology.

   Our testing plan included a determination of whether the journal vouchers were
   supported or unsupported journal voucher adjustments and properly identified as
   supported or unsupported. Additionally, our test plan included a determination of
   whether proper approvals, appropriate supporting documentation, and reasonable
   explanations for the journal vouchers were documented. To accomplish our audit
   objective, we compared the journal voucher supporting documentation to the DoD
   FMR, the OUSD(C)/CFO quarterly reporting guidance, and internal SOP for each
   of the 160 sampled journal vouchers. Available supporting documentation was
   obtained from DFAS CL and DFAS KC NWCF representatives.

   Use of Computer-Processed Data. We relied on computer-processed data from
   DDRS-AFS, DDRS-B, and CDB systems to perform our review of the journal
   vouchers. We did not perform a reliability assessment of computer-processed
   financial data because we determined only whether DFAS could adequately
   support the journal voucher adjustments. We did not find errors that would
   preclude the use of computer-processed data to meet the audit objectives or that
   would change the conclusions in the report.

   Use of Technical Assistance. QMD analysts provided technical assistance in
   developing a sample design and selecting a sample of journal vouchers.


                                      10
    Specifically, QMD provided a statistically selected sample of 160 journal
    vouchers that we analyzed and tested to achieve the objectives of the audit. See
    Appendix B for a discussion of the statistical sampling methodology.

    Government Accountability Office High-Risk Area. The GAO has identified
    several high-risk areas in DoD. This report provides coverage of the Financial
    Management high-risk area. The GAO considered DoD Financial Management a
    high risk because DoD financial management deficiencies represent the single
    largest obstacle to achieving an unqualified opinion on the U.S. Government’s
    consolidated financial statements. DoD continues to face financial management
    problems that are pervasive, complex, long-standing, and deeply rooted in
    virtually all its business operations. DoD’s financial management deficiencies
    adversely affect the Department’s ability to control costs and claims on the
    budget, measure performance, maintain funds control, prevent fraud, and address
    pressing management issues. GAO first designated this area as high risk in 1995,
    and it remains so today.


Prior Coverage
    No prior coverage has been conducted on the subject during the last 5 years.

    .




                                        11
Appendix B. Statistical Sampling Methodology

Sampling Plan
    Sampling Purpose. We used a stratified statistical sampling design to estimate
    the number of errors associated with selected types of controls. The results of our
    sample testing allowed us to estimate the number of unsupported journal vouchers
    entered and the total number of journal vouchers entered without sufficient
    operating controls.

    Sample Design. We applied statistical sampling to data from three systems used
    by DFAS to process journal vouchers. We designed a stratified sample plan with
    three strata corresponding to the three systems. We developed tests that applied
    to all three systems and drew a random sample from each of the three systems.
    We used statistical sampling to project audit results to the three systems
    combined. The table below identifies the three systems and the number of
    randomly selected sample items tested.


                    Journal Vouchers Statistically Sampled

       Stratum             System              Population         Sample Size
          1            DDRS-AFS                    275                50
          2            DDRS-B                      276                50
          3            CDB                         472                60
                        Consolidated             1,023               160


Sample Results
    Unsupported Journal Vouchers. With 90-percent confidence, the statistical
    estimate of the number of unsupported journal vouchers processed by DFAS in
    these three systems during the first half of FY 2006 falls within the range of 163
    to 277 journal vouchers. Using the midpoint of this range, we project that 220 out
    of 1,023 journal vouchers processed by DFAS in all three systems combined for
    this period are unsupported.

    Insufficient Operational Controls. Also with 90-percent confidence, the
    statistical estimate of the number of weaknesses identified in the operational
    controls of journal vouchers processed by DFAS in these three systems during the
    first half of FY 2006 falls within the range of 618 to 745 journal vouchers. Using
    the midpoint of this range, we project that 682 out of 1,023 journal vouchers
    processed by DFAS in all three systems combined for this period have
    weaknesses in the operational control procedures.




                                        12
Appendix C. Report Distribution

Office of the Secretary of Defense

Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy

Other Defense Organizations
Director, Defense Finance and Accounting Service
  Cleveland Center
Director, Defense Finance and Accounting Service
  Kansas City Center

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
 Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform




                                          13
Defense Finance and Accounting Service
Cleveland Comments




                      15
16
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Edward A. Blair
Dharam V. Jain
Laura J.S. Croniger
S. Peter Nahornyj
Allison Tarmann
